U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

June 16, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Devon Archer v. United States of America,
S.Ct. No. 20-1644

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on May 24,
2021, and placed on the docket on May 26, 2021. The government’s response is due on June 25,
2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including July 26, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-1644
ARCHER, DEVON
USA

BRANDON L. ARNOLD
ROBBINS, RUSSELL, ENGLERT, ORSECK
UNTEREINER LLP
2000 K STREET, NW,
4TH FLOOR
WASHINGTON, DC 20006
202-471-3043
BARNOLD@ROBBINSRUSSELL.COM
MATTHEW LANE SCHWARTZ
BOIES, SCHILLER & FLEXNER LLP
55 HUDSON YARDS,
20TH FLOOR
NEW YORK, NY 10001
212-446-2300
MLSCHWARTZ@BSFLLP.COM

